<html>
<title> - INTEGRATED NUCLEAR POWER SYSTEMS FOR FUTURE NAVAL SURFACE COMBATANTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-25]
 
  INTEGRATED NUCLEAR POWER SYSTEMS FOR FUTURE NAVAL SURFACE COMBATANTS

                               __________


                                HEARING

                               BEFORE THE

             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 1, 2007

                                     
[GRAPHIC] [TIFF OMITTED] 



                     U.S. GOVERNMENT PRINTING OFFICE

37-535 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE


                   GENE TAYLOR, Mississippi, Chairman
NEIL ABERCROMBIE, Hawaii             ROSCOE G. BARTLETT, Maryland
JAMES R. LANGEVIN, Rhode Island      KEN CALVERT, California
RICK LARSEN, Washington              TERRY EVERETT, Alabama
MADELEINE Z. BORDALLO, Guam          JO ANN DAVIS, Virginia
BRAD ELLSWORTH, Indiana              J. RANDY FORBES, Virginia
JOE COURTNEY, Connecticut            JOE WILSON, South Carolina
JOE SESTAK, Pennsylvania
                  Will Ebbs, Professional Staff Member
                 Heath Bope, Professional Staff Member
                    Jason Hagadorn, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Thursday, March 1, 2007, Integrated Nuclear Power Systems for 
  Future Naval Surface Combatants................................     1

Appendix:

Thursday, March 1, 2007..........................................    33
                              ----------                              

                        THURSDAY, MARCH 1, 2007
  INTEGRATED NUCLEAR POWER SYSTEMS FOR FUTURE NAVAL SURFACE COMBATANTS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bartlett, Hon. Roscoe G., a Representative from Maryland, Ranking 
  Member, Seapower and Expeditionary Forces Subcommittee.........     1
Taylor, Hon. Gene, a Representative from Mississippi, Chairman, 
  Seapower and Expeditionary Forces Subcommittee.................     1

                               WITNESSES

Etter, Hon. Dr. Delores M., Assistant Secretary of the Navy 
  (Research, Development and Acquisition); Adm. Kirkland H. 
  Donald, Director, Naval Nuclear Propulsion Program, U.S. Navy; 
  Vice Adm. Paul E. Sullivan, Commander, Naval Sea Systems 
  Command, U.S. Navy; Vice Adm. Jonathan W. Greenert, Deputy 
  Chief of Naval Operations, Integration of Capabilities and 
  Resources, U.S. Navy; and Rear Adm. Barry J. McCullough, 
  Director of Surface Warfare, U.S. Navy beginning on............     2

                                APPENDIX

Prepared Statements:

    Bartlett, Hon. Roscoe G......................................    37
    Donald, Adm. Kirkland H......................................    40
    Etter, Hon. Dr. Delores M., joint with Vice Adm. Paul E. 
      Sullivan, Vice Adm. Jonathan W. Greenert, and Rear Adm. 
      Barry J. McCullough........................................    55

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Sestak...................................................    73
  INTEGRATED NUCLEAR POWER SYSTEMS FOR FUTURE NAVAL SURFACE COMBATANTS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Seapower and Expeditionary Forces Subcommittee,
                           Washington, DC, Thursday, March 1, 2007.
    The subcommittee met, pursuant to call, at 2:04 p.m., in 
room 2118, Rayburn House Office Building, Hon. Gene Taylor 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. GENE TAYLOR, A REPRESENTATIVE FROM 
   MISSISSIPPI, CHAIRMAN, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Taylor. Good afternoon.
    I want to welcome our witnesses.
    Captain Ebbs has done a magnificent job of preparing my 
opening statement. Since we are scheduled for votes in a half-
hour, I am going to forego mine so we get a chance to go 
straight to our witnesses.
    We want to welcome the Honorable Delores Etter, Assistant 
Secretary of the Navy for Research, Development and 
Acquisition; Admiral Kirk Donald, Director of the Naval Nuclear 
Propulsion Program; Vice Admiral Paul Sullivan, Commander, 
Naval Sea Systems Command; Vice Admiral Jonathon Greenert, 
Deputy Chief of Naval Operations for Integration and Capability 
and Resources; and Rear Admiral Barry McCullough, Director of 
the Surface Warfare Division.
    Again, I am going to forego my opening statement because we 
want to hear from you. I am going to yield now to my ranking 
member, the great and wise Roscoe Bartlett.

  STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE FROM 
  MARYLAND, RANKING MEMBER, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Bartlett. Thank you very much. I ask unanimous consent 
to submit my statement for the record.
    Mr. Taylor. Without objection.
    Mr. Bartlett. Thank you very much.
    I am happy you are here and look forward to your testimony. 
Thank you.
    [The prepared statement of Mr. Bartlett can be found in the 
Appendix on page 37.]
    Mr. Taylor. Again, given that we have about 25 minutes, and 
I am looking at five very smart people, Secretary Etter, would 
you like to begin?

STATEMENT OF HON. DR. DELORES M. ETTER, ASSISTANT SECRETARY OF 
THE NAVY (RESEARCH, DEVELOPMENT AND ACQUISITION); ADM. KIRKLAND 
  H. DONALD, DIRECTOR, NAVAL NUCLEAR PROPULSION PROGRAM, U.S. 
  NAVY; VICE ADM. JONATHAN W. GREENERT, DEPUTY CHIEF OF NAVAL 
  OPERATIONS, INTEGRATION OF CAPABILITIES AND RESOURCES, U.S. 
NAVY; VICE ADM. PAUL E. SULLIVAN, COMMANDER, NAVAL SEA SYSTEMS 
COMMAND, U.S. NAVY; REAR ADM. BARRY J. MCCULLOUGH, DIRECTOR OF 
                   SURFACE WARFARE, U.S. NAVY

             STATEMENT OF HON. DR. DELORES M. ETTER

    Secretary Etter. Thank you.
    Chairman Taylor, Mr. Bartlett, and members of the 
subcommittee, thank you for the opportunity to appear before 
you today to discuss the topic of the potential use of 
integrated nuclear power systems for future naval surface 
combatants.
    On behalf of myself and the others joining me, I would like 
to submit our written testimony for the record. Admiral Donald 
will have a separate statement to make.
    I would like to begin by thanking the subcommittee for its 
keen interest in this topic. Next, I want to assure you that 
the Navy takes very seriously the strategic implications of the 
consideration of nuclear power for future ship platforms, which 
include operational effectiveness for our Navy and joint 
forces, and at the national level, the issue of fossil fuel 
demand.
    As Admiral Donald will point out, our nuclear fleet of 
aircraft carriers and submarines has demonstrated significant 
operational flexibility in responding to the nation's needs. 
The advantages of nuclear power are a key factor included in 
the analysis of future platforms. However, the selection of a 
power plant for new ships must consider a wide range of issues. 
These issues include design factors for individual platforms, 
including performance and acquisition and life-cycle costs.
    A platform decision must also be made in the larger context 
of overall force structure requirements, and of Navy-wide 
acquisition issues, including shipbuilding and the capabilities 
and capacity of our shipbuilding industrial base. The Navy 
recently submitted to Congress a report on alternative 
propulsion methods for surface combatants and amphibious 
warships. This comprehensive report addressed multiple ship and 
propulsion system concepts, including nuclear power, evaluating 
them on the basis of life-cycle costs and operational 
effectiveness.
    In particular, the study determined the break-even points 
based on the price of crude oil when nuclear propulsion 
alternatives become cost-effective over the life-cycle, as 
compared to fossil-fueled alternatives. There were some very 
interesting conclusions.
    First, the study confirmed that because nuclear ships can 
travel at high speeds for long periods without refueling, they 
can surge to theater quickly and spend more continuous time on-
station after arriving. The study also drew several important 
conclusions when considering acquisition and life-cycle costs. 
I would like to discuss these in terms of costs to build the 
ship and power demand of the ship.
    First, nuclear ships have overall lower operating and 
support costs because of their fuel independence, but are more 
expensive to build. The study found that this procurement 
premium ranged from between $600 million and $800 million per 
ship for the fifth ship of a class.
    Also, when focusing on the life-cycle costs or the break-
even point aspect of a ship power decision, it was clear that 
the energy requirements of a ship, not its physical size, as 
one might imagine, are the major driver in the selection of 
power systems. These energy requirements are dependent on the 
power demand of the combat system and also on how much time the 
ship will spend at sea, and at what speeds.
    Based on these projected energy demands, the life-cycle 
break-even points for small surface combatants ranged from $210 
per barrel to $670 per barrel, and for amphibious ships ranged 
from $210 per barrel to $290 per barrel. Consequently, life-
cycle cost savings alone are unlikely to drive selection of 
nuclear power for these ships.
    However, for medium surface combatants, with their 
anticipated high-combat system energy demands, this break-even 
point is between $70 per barrel and $225 per barrel. This 
indicates that nuclear power should be considered for near-term 
applications for those ships.
    The Navy is currently preparing an analysis of alternatives 
for a new class of surface combatants, CGX. If the cost and 
power requirements support consideration of a nuclear 
propulsion system, the Navy must also carefully consider the 
construction strategies for a nuclear surface combatant. Issues 
include the fact that neither General Dynamics, Bath Iron 
Works, or Northrop Grumman Ship Systems Ingalls, our nation's 
two suppliers of large surface combatants, are authorized by 
the Navy to conduct nuclear shipbuilding.
    Currently, construction of the nuclear portions of any 
surface combatant would need to be done at one of the two 
shipyards authorized to do such work: Northrop Grumman Newport 
News and General Dynamics Electric Boat. The specific 
implications of such a strategy on the existing and planned 
workload of each of these private shipyards have not been 
determined.
    Also, the Navy would need to conduct a detailed assessment 
of the risk and cost impacts of a potential splitting of the 
design and construction of a nuclear-powered surface combatant 
between nuclear- and non-nuclear-capable shipyards.
    To conclude, the selection of a power system for our Navy's 
future surface combatants is an extremely complex process, with 
many variables both at the ship platform and Navy-wide level. 
There is no optimum solution across all platforms. In providing 
our recent report to you, the Secretary of the Navy affirmed 
that we would use the methods in the report for future design 
analysis, and this would start with the CGX cruiser.
    Again, the Navy fully appreciates the operational 
advantages of nuclear power, particularly for ships with high 
energy demands. We also take seriously the strategic 
implications of increased fossil fuel independence. These will 
be considerations in our decision for future ships.
    With that, we thank you again for the opportunity to appear 
before the subcommittee, and we would be pleased to answer any 
questions. Thank you.
    [The prepared statement of Ms. Etter, Admiral Sullivan, 
Admiral Greenert, and Admiral McCullough can be found in the 
Appendix on page 55.]
    Mr. Taylor. Thank you, Madam Secretary.
    The chair now recognizes Admiral Donald.

              STATEMENT OF ADM. KIRKLAND H. DONALD

    Admiral Donald. Thank you very much. I have a brief 
statement I would like to offer for the record.
    Mr. Taylor. Certainly, Admiral. Because we have, with the 
great help of our ranking member, foregone on our opening 
statements, feel free to speak as long as you wish.
    Admiral Donald. Thank you, sir. I have prepared a briefing 
on the basics of naval nuclear propulsion. I would like to give 
that at this time, and I will come back and give my opening 
statement.
    Good afternoon, Mr. Chairman. Thank you very much for the 
opportunity to appear before the committee and discuss the 
Naval Nuclear Propulsion Program. I have prepared a briefing on 
the basics of naval nuclear reactors and how they actually 
work. To do this, I have brought a couple of props with me 
today.
    The first one being this model, a model that was used by 
Admiral Rickover in 1951, in the early days of the naval 
nuclear propulsion program when he was giving briefings widely 
to wide audiences, including national television, on how his 
technology, the pressurized water reactor, could be employed on 
a warship and specifically the submarine. At this time, the 
Nautilus was more concept than it was ship, because the ship 
did not go to sea until 1955.
    Fundamentally, what he chose for the power plant for the 
ship was what we call a pressurized water reactor. To describe 
that a little bit better, I have a diagram here on my left that 
may give you a few more details. The pressurized water reactor 
cycle really includes two distinct cycles, the first being a 
primary cycle, which includes this area here with the reactor. 
It is the heat source and its associated equipment provides the 
heat to convert the steam that we need to drive the turbines. 
If you think of it, it is like a fire-box in a boiler in a 
traditional ship today.
    That heat energy is translated into steam in this piece of 
equipment here, a steam generator. That steam is then 
translated into the secondary plant, which is the second cycle 
that is used to drive turbines. The key issue here, the key 
point of design, is that the two cycles are separate in that 
the water in the primary cycle, which is high-pressure water 
that flows through the reactor, is separated from the water 
that flows in the secondary plant at a lower pressure and is 
converted to steam.
    The key to that technology is the team generator that you 
see in there. Again, it is a heat exchanger. The steam that is 
generated in the heat exchanger by contact with the piping that 
contains that high-energy water from the reactor goes into 
propulsion equipment and electrical equipment to generate the 
electrical power that is needed for the crew, for the weapons 
systems, for the combat systems on the ship, and it goes to 
drive the propulsion train.
    In the report, you will see there is a discussion about 
mechanical propulsion and integrated propulsion systems. 
Mechanical uses turbines with reduction gears, a mechanical 
reduction system to drive the propeller directly. Integrated 
propulsion systems use another electrical generator that drives 
a motor that drives the propeller itself.
    We have had experiments. We have done testing. In fact, we 
have prototyped electric drive in submarines before. It is a 
technology we are familiar with. The next generation of surface 
craft, the DDG-1000, would use an integrated propulsion system 
of that nature. At any rate, the steam system would be the same 
to supply the steam to the driving turbines.
    A couple of key points about this area here in the reactor 
compartment. This reactor is obviously the heat source for this 
cycle. It uses the fission of uranium to generate the heat that 
heats the water up. That uranium, in the case of our 
submarines, is loaded in the beginning of the construction of 
the ship and it is never refueled.
    If you compare that to this ship, the Nautilus, her first 
core when she went to sea in 1955, she had to come back into 
port in 1957 to be refueled. We don't do that on our submarines 
anymore. On our aircraft carriers, we do have one mid-life 
refueling, typically at the 20- to 25-year point, to continue 
the life of the ship out to 40 to 50 years.
    The other thing that is noteworthy about this cycle is that 
the water, the high-pressure, high-temperature water that flows 
through the reactor, is completely contained inside a welded 
boundary. So when the water flows out of the reactor in to the 
steam generator, it flows inside high-strength, high-integrity 
tubes that maintain that water contained in the primary plant.
    The reason for that is to not have the water flowing 
through the core, which could be potentially radioactive, which 
will be radioactive, not come in contact with the water and the 
steam that will eventually be in the propulsion spaces, which 
is normally occupied by operators. The reactor compartment is 
not occupied during reactor operations.
    The other thing to recognize is that all of the equipment 
in the primary cycle is contained inside what we call the 
``reactor compartment.'' It is a shielded volume that is not 
occupied during reactor operations because of the high 
radiation levels. However, the shielding contains that 
radiation inside the compartment, and it does not affect the 
operators who routinely operate in the engineering spaces.
    So between not having the radioactive water contacted with 
the steam that is in the propulsion spaces, and having the 
shielded protection from the reactor, our operators operate in 
the vicinity of this bulkhead right here, this compartment, for 
months at a time without exceeding radiation levels that are 
allowed by law. In fact, an operator on a submarine would get 
less radiation in the course of a day's duty on a submarine 
than you get sitting in this building right now from either the 
building contents, the stone, or the cosmic radiation.
    The other thing to note about this equipment in here is 
that because it is designed to operate in a rigorous 
environment, high-pressure, high-temperature radiation, it has 
to be built to exacting standards. It has to be built in a 
rugged fashion. They are built to last. Furthermore, they are 
built to last the design-life of the ship.
    So when we put it in there, we expect it to stay. And that 
speaks to the discussion that Secretary Etter had about the 
initial premium of costs. We do have to ensure that those 
components are high quality and constructed correctly and 
maintained over the life of the ship to make sure that they 
will last for the life of that ship, and sustain in a safe and 
effective way, the operation of the ship.
    Finally, in the sense that they do, we do design them to 
last for a long time. This is to show you that this model that 
we have had, it still works, from 1951.
    Thank you very much.
    Mr. Taylor. Thank you, sir.
    Admiral, do you wish to continue?
    Admiral Donald. Yes, sir. I do have an opening statement.
    Again, sir, thank you very much for the opportunity to be 
here. And thank you to your committee, Ranking Member Bartlett 
and Mr. Larsen. Thank you very much. Thank you for your support 
over the years of the program. Without that support, we would 
not have been as successful as we have been.
    The naval nuclear propulsion program began in 1948 under 
the leadership of then-Captain Hyman G. Rickover. Admiral 
Rickover saw his vision come to reality on January 17, 1955 
when the USS Nautilus steamed out of New London, Connecticut, 
under way on nuclear power.
    He continued on to revolutionize maritime power plants for 
cruisers, aircraft carriers, and deep-diving submersibles. The 
virtually limitless power, endurance and flexibility afforded 
by these plants revolutionized naval warfare by providing the 
capability of sustainable persistent combat power to quickly 
respond where needed around the globe.
    Today, as the fourth successor to Admiral Rickover, I am 
responsible for all aspects of naval nuclear propulsion. I 
fulfill these responsibilities through the leadership and 
oversight of the network of dedicated laboratories and training 
facilities, plus the nuclear-capable shipyards, equipment 
contractors, and suppliers that comprise the nuclear industrial 
base.
    As the director of naval reactors, I oversee and support 
103 reactor plants in 81 nuclear-powered ships, submarine NR-1, 
and four training and test reactors. Since 1955, we have 
operated for more than 5,800 reactor years and steamed over 136 
million miles. Our nuclear-powered warships have safely 
operated for more than half-a-century without a reactor 
accident or any release of radioactivity that had an adverse 
effect on human health or the quality of the environment.
    Because of our record of safe operation, our ships have 
virtually unimpeded access throughout the maritime domain. For 
example, in addition to the full freedom of maneuver on the 
high seas, U.S. nuclear-powered warships are welcome today in 
over 150 ports in more than 50 countries worldwide, thus 
allowing our warships to carry out their mission without 
constraint.
    Over our history, we have built and operated nine nuclear-
powered cruisers, 10 nuclear-powered aircraft carriers, and 
nearly 200 nuclear-powered submarines. Every propulsion plant 
designed, fully met, or exceeded the warfighters' requirements. 
Today, as ship designs advance to incorporate capabilities and 
warfighting needs that require more sustained energy in 
addition to the need for prompt global response and endurance, 
nuclear propulsion becomes an increasingly viable design option 
and should be considered for incorporation where the 
requirements dictate.
    The formal advantages of nuclear propulsion do come with 
some unique costs. It must be considered in design trade 
studies. However, these costs are often mischaracterized. When 
comparing life-cycle costs, the nuclear propulsion premium, the 
additional cost associated with a nuclear-powered warship, and 
that depends on the operational tempo, the service life and 
mission requirements of the ship, varies between zero and 40 
percent. Larger ships demanding higher energy levels have 
smaller premiums. Studies conducted by the Navy in fiscal year 
2006 indicate that the resulting up-front acquisition premium 
averages between $600 million and $700 million per ship.
    I would like to elaborate briefly on what that premium 
buys. Nuclear propulsion plant construction requires unique 
skills, infrastructure, and Administration to ensure that the 
high standards essential to safety and effectiveness are built 
into each component and into the finished integrated product. 
The plants are built to last for the design life of the ship. 
In the case of aircraft carriers, that is 50 years.
    So the quality, ruggedness and redundancy essential to 
successful combat operation must be built in up-front and built 
to last. Additionally, this up-front cost includes paying for 
the full service life of fuel for submarines and half of the 
fuel for the life of the aircraft carrier.
    Today, there are two authorized and experienced nuclear 
construction shipyards which have been in this business since 
the early days of the program. They are currently operating 
below their capacity. Likewise, the nuclear component 
industrial base is also working below its capacity. 
Consequently, the cost of infrastructure and intellectual 
capital needed to construct nuclear-powered warships, or the 
overhead, is borne by far fewer production units or ships than 
is optimal in a cost-savings sense.
    The safe and effective operation of naval nuclear 
propulsion plants is further dependent on highly trained and 
competent people, our sailors. Given the plans for future 
capital ships that include more technology and smaller crews, I 
expect the same to be true in areas outside the propulsion 
plant in future ships.
    The cost of sustaining this fine cadre of professionals is 
accounted for in the total life-cycle cost calculation that 
will be evaluated against other potential alternatives. We 
continue to meet our goals for both recruiting and retaining 
high-quality professional sailors into the foreseeable future. 
My training pipeline does have the capacity without further 
infrastructure investment to produce the additional personnel 
required by future classes of ships.
    We must also ensure that our nuclear-powered warships are 
maintained at a high standard of material readiness. Over the 
years, we have continually evaluated our maintenance 
requirements and continually improved the reliability of our 
equipment, with the objective of only doing the maintenance 
necessary to ensure the safety and effectiveness of the ship.
    For example, the Ford Class aircraft carrier propulsion 
plant is designed to have a 30 percent reduction in required 
maintenance. Not only will this reduce maintenance costs, but 
these gains will also provide enhanced operational flexibility. 
When the proper maintenance is done throughout the life of the 
ship, a nuclear-powered warship's availability is equal to or 
better than the fossil fuel counterparts. Maintenance costs are 
also included in life-cycle costs.
    Finally, I am responsible for the ultimate disposal of a 
nuclear plant at the end of the ship's life. We have been doing 
that successfully for 20 years. We know how to do it. The 
technical procedures are well documented and well understood. 
That is also included in the life-cycle costs.
    When making propulsion plant design decisions for new 
classes of warships, these cost factors must be considered and 
balanced against operational advantages associated with costs 
and availability of other fuel sources and with the mission 
requirements of the ship.
    The naval nuclear propulsion program has long provided safe 
and reliable plants for naval warships where appropriate from a 
mission need and affordability standpoint. The Navy and 
Department of Defense have processes in place to ensure that 
nuclear propulsion is adequately considered in a fact-based 
analysis of alternatives regarding the type of propulsion plant 
best for warships.
    My program will continue to play a key role in that 
process, and I will be actively involved.
    Thank you very much for allowing me to address the 
committee.
    [The prepared statement of Admiral Donald can be found in 
the Appendix on page 40.]
    Mr. Taylor. Thank you, Admiral.
    I am going to yield to my ranking member, Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    I have a question relative to life-cycle costs. If it were 
possible to make a nuclear Humvee, and we can't do that yet, 
but if it were possible to make a nuclear Humvee, and we were 
trading off the cost of making this nuclear Humvee with the 
present diesel Humvee, I have a question about what cost 
factors would we put on the diesel fuel.
    Presently, crude oil is about $60 a barrel, and diesel fuel 
is $2.59 or $2.60 or something a gallon. But I am told that by 
the time we get that gallon of fuel in the Humvee in Iraq, that 
it costs us $400. I am also told that 70 percent of all the 
tonnage that we move to the war front is fuel.
    I wonder what fuel costs we consider when looking at fuel 
costs for the ship. The cost of the crude oil may be a 
relatively small part of the cost of getting that fuel in the 
ship over there. How did we account for this in our evaluation?
    Secretary Etter. I would like to ask Admiral Sullivan to 
address that, as the Commander of Naval Sea Systems Command 
(NAVSEA).
    Admiral Sullivan. Yes, ma'am.
    Mr. Chairman, good afternoon. Mr. Bartlett.
    The costs of refining, storing, and transporting and 
testing that fuel oil was fully burdened in the study. In fact, 
when added to the cost, we started with about $75 per barrel, 
$74.15 per barrel, and the fully burdened cost of storing, 
transporting and getting the oil out to the ship is about $152 
to $153 per barrel. So that was accounted for in the study, 
sir.
    Mr. Bartlett. Was there any attempt to put a value on the 
fact that we had freed ourselves from the necessity of fueling 
our ships? How do you put a value on that?
    Admiral Sullivan. Sir, in the study, we compared the 
nuclear variance of the ships and we had 23 ships, as you know, 
in the study. We compared the operational flexibility of those 
ships to the operational flexibility of the fossil fuel 
variance in terms of surge ability, ability to move quickly 
from one theater to another at high speed, and in terms of time 
on station. In all three of those areas, the nuclear ships came 
out better.
    Mr. Bartlett. But you did not put a dollar value on that 
when you were comparing?
    Admiral Sullivan. No, sir.
    Mr. Bartlett. I am reminded of that ad. It was not a very 
good ad because I can't tell you what they were selling, but 
the ad goes through, you know, so much for this, so much for 
that, and so much for the other thing, but for this it is 
priceless. They failed because I don't remember what they were 
selling, and that is the real point of an ad, isn't it? That is 
a technique they use. What were they selling, by the way?
    Admiral Sullivan. MasterCard.
    Mr. Bartlett. MasterCard, all right. Selling MasterCard. 
Okay. [Laughter.]
    It is that way, I think, with the diesel-powered ship. I 
don't know how you put a price that is pretty priceless to be 
out there, never have to go into port, never have to refuel, 
never worry about how far you can go and how fast you can go 
because you can do anything you wish.
    If the Admiral would indulge me, I would just like to note 
another consideration. About seven weeks ago, I guess, I came 
back from China. One of my colleagues here was with us in China 
and he will certify that what I am saying is true. I don't know 
if he was stunned, because he is a lot more knowledgeable on 
China than I was, but I was stunned when they began their 
discussion of energy by talking about post-oil. I think 
essentially every one of them did it.
    We first talked to some of the energy people, and they 
talked about their five-point program that started out with 
conservation. The second and third, I forget which was second 
and which was third, was get as much of your energy as you can 
at home, and diversify as much as you can so you are not 
dependent on any one source.
    The fourth one really was interesting: Be kind to the 
environment. They are the least kind of any country to the 
environment, and they were very apologetic for that.
    They noted they have 1.3 billion people, and their highest 
priority--and I am not sure it is all altruistic--but their 
highest priority is to make sure their people are content. If 
they aren't content, maybe there will be some political 
problems. And they apologized for the fact that they weren't 
doing well environmentally, and they actually asked for help.
    The fifth one was particularly impressive. It was 
international cooperation. I would be happy if we had such an 
enlightened dialogue with leaders in our country. They seem to 
get it. China is doing two things simultaneously that give me 
some pause. One is they are going around the world and buying 
oil wherever they can.
    You might ask, why would you do that when in today's world 
it doesn't matter one bit who owns the oil? Which is why I 
didn't go ape when the Chinese company was about to buy Unocal 
because it really doesn't matter who owns the oil. Whoever has 
the dollars can buy the oil.
    So why, then, is China going around the world buying all 
this oil? I was told it was perhaps because they didn't 
understand the marketplace, but it is hard for me to believe a 
country that is growing at 11.4 percent doesn't understand the 
marketplace. Simultaneously with that, they are also 
aggressively building, as you know, a blue water navy. We have 
launched, I think, one submarine last year. I was told they 
launched 14 submarines last year. Now, theirs are not ours, but 
14 is 14. And they are very aggressively building a blue water 
navy.
    Do you think the day may come when they tell the world, 
``Gee, we are sorry, guys, but we have 1.3 billion people and 
it is our oil and we are not going to share it''? And you would 
need a pretty big navy to make that happen, wouldn't you?
    I think that we need to look down the road, and although 
something may not be cost-effective today, I think there are 
enormous national security reasons for pursuing nuclear on a 
very broad scale across our Navy. What say you?
    Admiral Greenert. Mr. Bartlett, I would say I would agree 
with you that clearly we need to take nuclear power and 
alternative energy seriously as we look forward and evaluate 
our classes of ships. We are doing exactly that in our analysis 
of alternatives. We will continue to do so.
    Mr. Bartlett. They are ringing the bells, Mr. Chairman. I 
know you have a number of questions. I really appreciate your 
enthusiasm for looking at nuclear in our Navy. I would hope 
that we would look beyond just the dollars.
    By the way, before I yield, I would like to note that in 
the kind of rough-cut study you did some time back, you had 
exactly a reversal of what it would cost. You had the large-
deck amphibs as being competitive at, what, about $70 or $80 a 
barrel, and you had the other ships as being, so we have an 
exact flip this time. It is kind of interesting.
    Admiral Donald. Sir, I can talk to that, because the quick-
look study, the original one that was done was one that we 
worked with NAVSEA to develop. What is different about that 
study and this one is that we took into consideration the 
operating profiles of the ships. In ours, it was really more a 
displacement versus cost of oil and the amount of time--a 
relatively basic operating profile.
    We got more sophisticated, I would say, in the study that 
was recently completed because it took into account mission 
requirements, operating profiles, a variety of those operating 
profiles, whether it be high speed, or whatever it turns out to 
be. Admiral Sullivan can address those more specifically.
    Also, what was different between this study and the one 
that you saw the first time, is it took into account the 
electric energy requirements, the energy requirements on the 
ships for maybe advance sensors, whether they be radars. And 
that turned out to be a decisive point. I would let Admiral 
Sullivan discuss that further, if you should desire any more.
    Mr. Bartlett. I can understand how that would make nuclear 
more competitive for the combatants, but I don't understand why 
it changed the dynamic for the large-deck amphibs.
    Admiral Donald. Sure.
    Admiral Sullivan, do you want to speak?
    Admiral Sullivan. Yes, sir.
    The reason the large-deck amphib became less competitive 
for a nuclear power plant is that we modeled a specific 
propulsion configuration baseline that we now have in building 
in the LHD-8 class, where that ship has a diesel engine running 
a small generator that generates about 5,000 horsepower. You 
can run the ship around on that generator on the diesel engine 
for 85 to 90 percent of the time it is in service. That is a 
very, very efficient power plant. So when compared to that 
power plant baseline, nuclear power became less competitive.
    I would like to add, though, that even in the amphibious 
ships in the study, on a procurement cost basis, they were 
definitely more expensive. The life-cycle penalty on those 
ships was only seven percent to eight percent, when you 
compared over the life-cycle of the ships. So it is not a big 
delta.
    Mr. Bartlett. Thank you, Mr. Chairman.
    Mr. Taylor. Thank you.
    I would like to announce to all the members that we are 
going to have, I believe, five votes, and probably going to 
gobble up about one hour. So we are going to try to back out 
where we can now. I would encourage those of you who can return 
to return.
    I would also like to announce that because this room is 
going to be used for another briefing that we will be resuming 
in 2116, so you will have about one hour to eat lunch or 
whatever.
    Mr. Larsen.
    Mr. Larsen. It seems to me we are going to have to, next 
time we will have you scheduled at a different time. As I 
recall, the last time you all were up here we had votes as 
well. We can't control that and we apologize as well.
    I apologize, my questions may be basic. This is a little 
bit new to me.
    For Admiral Donald, I was wondering about the scalability. 
From a submarine fleet to carriers, I imagine there is a 
difference in scale. And then what it takes to scale, 
presumably something in the middle. Is this closer to the 
submarine-size system or a carrier-size system, or surface 
ships?
    Admiral Donald. Sure. Yes, sir. The design of the 
propulsion plant follows the design, or is conduced in 
conjunction with the design of the ship itself. You have to 
size the power plant to meet the needs of the ship. That calls 
for different capabilities, different megawattages, different 
shaft horsepowers.
    What we looked at when we worked with Admiral Sullivan in 
the study for a mid-size surface combatant for the purposes of 
the study, we looked at a power plant that is about half the 
size of the one that we would be putting into the next 
generation of aircraft carriers, the Ford Class aircraft 
carrier. That is typically a two-reactor ship. We would look at 
using a one-reactor ship. That is the design we followed.
    It would probably take some modification in some of the 
electrical generating equipment based on the type of propulsion 
train you would put in, but that was generally about the right 
size for what we considered, and provided some margin for 
growth in the future of the ship, since these ships are 
typically designed to last for 30 years or so. That was 
basically what we did.
    Again, once you get into the details of the construction 
and design of the ship, you would have to size it 
appropriately. We believe that we have technology, certainly, 
and components that are in the rough size to be able to make a 
good estimate.
    Mr. Larsen. Okay. The Chief of Naval Operations (CNO) was 
here earlier today to talk about the budget. A variety of 
issues came up, including the CGX. This gets to the question of 
the timing. If there is a fish-or-cut-bait time coming, what is 
that time for you all to say we are going to use this kind of 
system, or we are going to stick with the traditional diesel?
    Admiral Donald. Given the timelines in the Navy 
shipbuilding plan, it would start into the preliminary design 
in 2011, construction in 2013. We, the nuclear propulsion 
business, would typically be on-point because we need to get 
our components, the heavy components like the reactor vessels, 
as you see, and those types of equipment, the core itself, 
under construction quickly.
    Assuming that you would use an existing plant with minor 
reconfiguration needed, we would need to get our heavy 
equipment on order about four years prior to the start of 
construction.
    Mr. Larsen. About four years prior to 2011?
    Admiral Donald. Prior to 2013.
    Mr. Larsen. So two years from today.
    Admiral Donald. Approximately four years prior to 
construction. Again, assuming you wouldn't want to be doing a 
lot of redesign to be able to achieve that type of timeline. I 
think we have to understand what the ship is going to look 
like, because we haven't gotten into that in any detail yet. 
There are certainly other areas of ship design that would have 
to be considered that would probably result in it being as 
limiting as anything I would have as far as design of the 
propulsion plant is concerned.
    Mr. Larsen. So whatever the ship design is, you need about 
two years lead time. It is not just a matter of flipping a 
switch and we are ready to go. You need about two years lead 
time to craft your nuclear propulsion system for the ship that 
is designed.
    Admiral Donald. Prior to start of construction, again back 
up approximately four years, and while, again assuming that I 
can use existing components with minor redesign, I can get 
those on order and then the arrangement work can be going on 
simultaneously.
    Mr. Larsen. Okay, okay. Just a quick question. Obviously, 
in Washington State, we have a historical problem with nuclear 
waste disposal. It is a very difficult challenge for us, that 
we continue to pay for. I think we are on top of that, but that 
is another subcommittee. Can you answer the question for us, 
because this may be common knowledge, I don't know: How do we 
dispose of the facilities when we decommission?
    Admiral Donald. When we inactivate a nuclear ship, it is a 
multi-step process. The first thing that we do is we remove the 
fuel from the ship, because we don't allow ships to sit around 
idle with fuel still in them. We do remove the fuel. That fuel 
is shipped to Idaho, near Idaho Falls at the naval reactors 
facility which is at the Idaho National Laboratory.
    We then use that facility to examine all of our fuel post-
use. That is how we have been able to extend the lifetime of 
cores through that examination, and learning from our designs, 
and improving on it. Once the examinations are complete, we are 
now moving the fuel out of water pits, which is where it is 
right now, and moving it into what we call dry storage.
    It is essentially moving the fuel out of the water pits 
configured in a way for long-term dry storage into large 
canisters, about 350,000 pounds apiece. Those canisters are now 
road-ready, we call it--ready to go to the ultimate land 
depository, if it is Yucca Mountain or wherever it turns out to 
be. We are in a position to move that. It would remain in dry 
storage in that facility until the shipment is actually 
started. We are in production now to move that fuel. It is 
going into dry storage as we speak.
    Mr. Larsen. One final question: Are those vitrified or is 
it just the core and it is stored in a canister?
    Admiral Donald. No, it is actually components of the core. 
The fuel rods themselves are disassembled as a part of the 
process, and then they are stored in a specially designed 
container to maintain the integrity of the equipment and 
maintain it in a safe condition for as long as it would be in 
storage.
    Mr. Larsen. Yes. Thank you.
    Admiral Donald. Yes, sir.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Larsen.
    The committee will stand in recess until 4 p.m., at which 
time we will reconvene in 2116. Thank you very much. I am sorry 
for the inconvenience to all of you.
    [Recess.]
    Mr. Taylor. Again, we apologize for the delay. Thank you 
for sticking around.
    The chair now recognizes Ms. Gillibrand.
    Mrs. Gillibrand. Thank you so much for coming.
    I started to have a conversation with the admiral just for 
a second. My district is in upstate New York. We have a nuclear 
facility there, the Knolls Lab.
    I wanted to know, with the Navy's current planning, how 
will production be impacted in our lab? Is there any way that 
we can facilitate any of the work that you plan to do?
    Admiral Donald. We had started to talk about that concept 
that was used in the study that was done by Admiral Sullivan. I 
assume that we will be using an existing design to the greatest 
extent possible. The degree to which we can do that depends on 
what the ship configuration looks like and what the energy 
needs are for the ship. But ideally, we like to use existing 
components.
    Along with that would have to be some reconfiguration, as 
opposed to a major redesign. So in that sense the intellectual 
capital and the resources that we have in our labs right now is 
sufficient to deal with that.
    If you do talk about a long-term expansion and a new class, 
a larger class of ships over a longer period of time, then 
obviously you have to look at what the resources are like in 
the lab to be able to support the fleet support on a day-to-
day-type technical support that would have to go into that, but 
that would be what we would consider.
    Mrs. Gillibrand. And do you see any other applications for 
the technologies that are being developed in the lab now, to 
see it being able to be used for civilian use or commercial use 
down the line?
    Admiral Donald. We frequently get asked for other 
applications for the reactors that we build. One of the things 
that we have to consider is that the plants that we build are 
designed for a very specific circumstance, that is a naval 
vessel. With that comes a requirement to be combat ready, to 
withstand combat shock-loading and things of that sort.
    We tend to build things into our plants that for a 
commercial application, that were doing it for profit, you 
wouldn't do that. It is not the type of thing that you would 
do. This really would be a gross over-design for something like 
that. So in that sense, the product that we build is unique to 
what you would use in the military and our naval application, 
and not necessarily have a civilian application.
    Mrs. Gillibrand. Thank you.
    Are there any improvements or investments to the Knolls Lab 
facility that you would like to see? Is there anything that you 
think needs to be upgraded or updated within the facilities as 
they exist now?
    Admiral Donald. First off, I would love to have the 
opportunity to host you at the Knolls Lab and come visit and 
see the place. If you look at our budget plan for 2008, it has 
the requirements that we need for the next fiscal year to 
sustain the lab and do the improvements that we need to make to 
sustain the program for the long haul.
    We have obviously got long-term plans that we are working 
with, and we will address those in the budget years. But right 
now, you have taken very good care of my program and we have 
been able to support the fleet accordingly. Thank you.
    Mrs. Gillibrand. Thank you, Admiral.
    Admiral Donald. Yes, ma'am.
    Mr. Taylor. I thank the gentlewoman.
    Admiral Donald, one of my frustrations as a representative 
of the citizens, trying to see to it that the tax dollars are 
used to the best, is a trend to retire ships well before their 
30-year life expectancy. We never really get to the size fleet 
we want.
    I am curious. In your professional opinion, would a nuclear 
cruiser be more likely or less likely to have all the power 
onboard it is going to need for that 30-year life of the ship, 
keeping in mind that some people think the future of naval 
weapons is going to be directed energy, and that that is going 
to require an enormous amount of power when that program and 
platform is onboard, and hopefully sooner than later.
    Admiral Donald. Yes, sir. One point, I would just like to 
revert back to the hearing earlier today. I want to correct a 
statement that I made that may at least have confused people. 
When I talked about the construction start, the contract start 
for the next cruiser, I indicated that 2013 would be when I 
would need to have my components ready to start.
    The implication could be that that implied authorization in 
2013. The authorization is 2011, as indicated in the CNO 
shipbuilding plan. I just want to make sure I didn't confuse 
anybody, other than myself, when I said that.
    To your question specifically----
    Mr. Taylor. So for clarification, back up before your long 
lead time, you are talking about you need a statement of intent 
either coming from within the Navy or coming from the Congress 
this year or next, right?
    Admiral Donald. No, sir. Again, it remains the same for me. 
The point in time in the construction of the ship, from an 
authorization at the level of what I would need to have my 
components landing and commencing assembly in the yard, would 
be about the 2013 timeframe.
    So I have to back up approximately four years from that to 
be able to be ready to do that, so you are talking obviously 
the 2009 timeframe that I have to start getting heavy 
components under order and a government furnished equipment 
(GFE) for the nuclear plant under order and construction.
    Mr. Taylor. In your testimony, at least in the testimony as 
I read it, you mentioned a possible cost reduction because of 
economies of scale when it came to nuclear power plants for the 
Virginia class and other classes.
    What do you think that would translate to, given that when 
you compile all of the things that are possibly in play now, 
which would be authorizing a second and appropriating a second 
submarine this year, if we were, as a Congress, to mandate 
nuclear cruisers? Would that be part of the game plan?
    Realistically, what kind of cost stabilization or what kind 
of cost savings do you think we could achieve by doing both of 
those things?
    Admiral Donald. First off, let me take the Virginia class 
first. The analysis that we have done on going to two-per-year 
of Virginia would result in an approximate savings per hull of 
about $200 million. There is some additional savings that you 
could probably gain through the work, or you would gain, in 
fact, through the work that we are doing as a part of the 
challenge the CNO gave us on reducing the overall price of the 
ship to $2 billion. But just based on the volume and the 
improvement in economic order quantities, we estimate about 
$200 million per hull.
    If you lay in now consideration for a cruiser, then first 
off, there would be an impact in the industry, an immediate 
impact because once you start ordering components, then you can 
start dissipating overhead in these organizations, these 
vendors that I have, very quickly to dissipate the overhead and 
drive down the unit price of the components.
    I have rough estimates, if you were talking about over a 
class of cruisers and getting one every two years, in the end-
state you would be talking about something on the order of 
about seven percent reduction in the price of the GFE that we 
provide to the ships--about seven percent.
    For an aircraft carrier, it is something on the order of 
about $115 million a set. For a submarine, it is something on 
the order of about $35 million per set of GFE, but that is in a 
steady-state environment over a series build of ships. So that 
is probably the most optimistic estimate that I would give you, 
but that you would get some savings certainly in economic order 
quantity, and in being able to spread the overhead out over a 
larger base.
    Mr. Taylor. Okay. So playing devil's advocate, we are not 
going to hear from the other side that, well, you are taxing 
the industrial base and we are going to pay a premium for this 
if we order too many nuclear-powered vessels. Is that accurate? 
Do you foresee a circumstance that the industrial base comes 
back to us and says you are now ordering too many of these 
things; you have to pay a premium? Or do we end up getting 
economic order quantity?
    Admiral Donald. Right now, as I look across the industrial 
base that provides, let's just talk about the components, for 
instance, and I just look across that base, because we have 
been asserting earlier that we were going to go to two-per-year 
Virginias. We had facilitized and have sustained an over-
capacity in those facilities to support construction of those 
additional components.
    So right now, it depends on the vendor and which one is 
doing what, the capacity is running right now at probably about 
65 percent of what it could be doing, on the order of that. 
Again, it varies depending on the vendor specifically.
    So there is additional capacity in there, and even with the 
addition of a second Virginia class submarine, there is still a 
margin in there, if you are talking about a single cruiser in 
the early phases of design, we still have margin in there that 
I believe we can sustain that work in addition to the submarine 
work within the industrial base.
    We would have to look at that in more detail once we 
determine what the design looks like and the degree to which we 
can use existing components. If you had to design new 
components, that would add a little bit more complexity to it, 
but that is a rough estimate of what I would provide for you 
now.
    Mr. Taylor. I believe the secretary had in her testimony, 
and made reference that we have two nuclear-certified yards at 
this time.
    Admiral Donald. Right.
    Mr. Taylor. Keeping in mind that we have five surface-
combatant shipyards, or capable shipyards at this moment. To 
what extent could the other three participate in bidding on 
these? To what extent could a very large portion of the hull be 
built, and then towed to either one of the two nuclear yards 
for the nuclear components? How expensive is it for a yard that 
is not at the moment nuclear-certified to become nuclear-
certified? How big a hurdle is that?
    Admiral Donald. I think it may be best to split that 
question in two pieces. I will cover the latter piece, the 
discussion of----
    Mr. Taylor. How would you do it ideally?
    Admiral Donald. I am sorry?
    Mr. Taylor. And the third part would be, under ideal 
circumstances, how would you see this taking place?
    Admiral Donald. I will go ahead and address the piece of 
that about what it takes to certify and to re-establish or 
establish another nuclear-capability yard, and then I will ask 
that Secretary Etter and probably Admiral Sullivan discuss the 
second piece of it.
    Just the basics of what it takes to have a nuclear-
certified yard, to build one from scratch, or even if one 
existed once upon a time as it did at Pasacagoula, and we shut 
it down, first and foremost you have to have the facilities to 
do that. What that includes, and I have just some notes here, 
but such things as you have to have the docks and the dry-docks 
and the pier capability to support nuclear ships, whatever that 
would entail.
    You would have to have lifting and handling equipment, 
cranes, that type of thing; construction facilities to build 
the special nuclear components, and to store those components 
and protect them in the way that would be required. The 
construction facilities would be necessary for handling fuel 
and doing the fueling operations that would be necessary on the 
ship--those types of things.
    And then the second piece is, and probably the harder piece 
other than just kind of the brick-and-mortar type, is building 
the structures, the organizations in place to do that work, for 
instance, nuclear testing, specialized nuclear engineering, 
nuclear production work.
    If you look, for instance, at Northrop Grumman Newport 
News, right now, just to give you a perspective of the people 
you are talking about in those departments, it is on the order 
of 769 people in nuclear engineering; 308 people in the major 
lines of control department; 225 in nuclear quality assurance; 
and then almost 2,500 people who do nuclear production work. So 
all of those would have to be, you would have to find that 
workforce, certify and qualify them, to be able to do that. And 
then finally you have to train them, obviously, and then 
qualify them to do the work.
    So my view of this is we have some additional capacity at 
both Electric Boat and at Northrop Grumman Newport News. My 
primary concern is if we are serious about building another 
nuclear-powered warship, a new class of warship, cost is 
obviously going to be some degree of concern, and certainly 
this additional cost, which would be--and I don't have a number 
to give you right now, but I think you can see it would be 
substantial to do it even if you could. It probably doesn't 
help our case to move down the path toward building another 
nuclear-powered case, when we have the capability existing 
already in those existing yards.
    And then I would turn it over to Secretary Etter or Admiral 
Sullivan, whoever wants to take that next piece of it.
    Secretary Etter. I think this is really an Admiral Sullivan 
question.
    Admiral Sullivan. Sir, we are building warships in modular 
sections now. So if we were going to, could you assemble this, 
could you build modules of this ship in different yards and put 
it together in a nuclear-certified yard, the answer is yes, 
definitely, and we do that today with the Virginia Class. As 
you know, we are barging modules of submarines up and down the 
coast.
    What I would want is, and sort of following along with what 
Admiral Donald said, you would want the delivering yard to be 
the yard where the reactor plant was built, tooled, and tested, 
because they have the expertise to run through all of that 
nuclear work and test and certify the ship and take it out on 
sea trials.
    But the modules of the non-reactor plant, which is the rest 
of the ship, could be built theoretically at other yards and 
barged or transported in other fashion to the delivering 
shipyard. If I had to do it ideally, that is where I would 
probably start talking to my industry partners, because 
although we have six shipyards, it is really two corporations, 
and those two corporations each own what is now a surface 
combatant shipyard and they each own a nuclear-capable 
shipyard.
    I would say if we were going to go do this, we would sit 
down with them and say, you know, from a corporation 
standpoint, what would be the best work flow? What would be the 
best place to construct modules? And how would you do the final 
assembly and testing of a nuclear-powered warship?
    Mr. Taylor. Okay.
    The chair yields to Mr. Sestak.
    Mr. Sestak. Thanks, Mr. Chairman.
    I am sorry I was late. I think probably most of these 
questions have been asked, but I am a slow learner, so if you 
don't mind.
    A question I had was about the steaming hours that you used 
in your study, from going through it, it looked like you based 
it upon historical, looking back at fiscal year 2001 through 
2004, or something like that. Why didn't you just use the 
steaming hours that you planned for, you know, the 51 or the 
22?
    Secretary Etter. I think Admiral McCullough might be able 
to address that, or is that Admiral Sullivan, too? Okay.
    Admiral Sullivan. What we really did, and that is a great 
question because historically we didn't do a very good job of 
understanding the operating profile and the total energy 
requirements of the ship. So what we did, yes, we took that 
history for the small combatant and medium combatant and 
amphibious ship, based on the last, it was probably ten years.
    But we also said, okay, let's talk about the prediction for 
looking at the mission suites of similar ships, predicting into 
the future, using the operational analysis that worked up to 
the 313-ship Navy, looked ahead and bounded the problem by 
having a high operating profile, a medium operating profile and 
a low operating profile.
    And then, really, the reason we looked at the history was 
as a check to make sure we were not out of bounds with our 
high, low and medium operating profiles. So that produced a 
range of break-even analyses, which gives you the range that we 
have given you.
    Mr. Sestak. But when you came back and you said the high 
operational tempo was probably unlikely, and you kind of came 
back and said it is probably more about the $115 one. It looked 
to me as though your analysis for that one was based upon what 
history was, somewhere between the lower operating profile and 
the medium one. It was hard to discern it, but it seemed to me 
you were trying to say we based it on historical patterns, 
those two, and that is the more likely. Is that right?
    Admiral Sullivan. No, sir. We actually went ahead, it is 
budgeted, but for the emissions suite analysis of similar type 
ships and looked ahead at those sorts of operating profiles.
    Mr. Sestak. The only reason is that the Navy has gone down 
in its funding on the one hand. Instead of 22 days at home, 28 
days under way, 22 days at home, it has come in with a budget 
last year saying 36 days under way per quarter for four 
deployed forces. As a matter of fact, this year they upped it 
some to 40-some.
    So I didn't know whether, you know, we should be using what 
the Navy, as we go forward in this analysis, should we be using 
what we are going to be funding for? I mean, does that help 
any?
    Admiral Sullivan. I would tend to think that Barry ought to 
take this question. I will tell you that the reason that you 
look at history is it varies a lot. There are some years when 
we don't do a whole lot of steaming. There are some years where 
there is budget constraint, and there are other years where if 
you looked at that profile, 2003 was way up there because we 
went to war. We took the whole fleet and steamed. I think 75 
percent of the fleet was forward-deployed much of that year.
    So the good thing about the history is that it smooths, if 
you take it over the long haul, and these ships are 30- to 50-
year service life, depending on which kind of ship you are 
talking about, you tend to average out those that you budget 
for in a 5-year cycle. Beyond that, I ought to turn it over to 
Barry.
    Admiral McCullough. Yes, sir. If you look at our typical 
operating patterns in home port, even though we are funding 
initially to 28 days-a-quarter under way, we found that we were 
really only using about 22 or 22-1/2 of those days. So I would 
tell you that home port or in Continental United States (CONUS) 
steaming days that we funded in the budget at 22 is about 
right.
    When you look at what we do deployed overseas, it is in 
excess of what we put in the budget. But when we balanced all 
the requirements we had across the spectrum of our portfolio, 
we believed that 45 days was about acceptable with risk.
    Mr. Sestak. Again, this, as well as energy requirements, 
are the two strong drivers. Correct? At least for this portion 
of the study, for cost?
    Admiral McCullough. Yes, sir.
    Admiral Sullivan. Yes, sir.
    Mr. Sestak. So it really does matter where that variable 
comes from, I gather.
    Admiral Sullivan. But if you are within the lower limit, 
that is something you ought to look at. That means you ought to 
be considering nuclear power for the ship. We didn't say that 
if it looks like the lower limit, you shouldn't, because most 
of the range of price of oil was above that limit. If it is 
close to the lower limit, you should look at that.
    Mr. Sestak. The radar requirement, I gather, for Theater 
Ballistic Missile Defense (TBMD) is about 31 megawatts?
    Admiral McCullough. Yes. If you look at the energy 
requirements in the spectrum of sensitivity radar we are 
looking at, it is around 30 megawatts.
    Mr. Sestak. About 30?
    Admiral McCullough. Plus or minus.
    Mr. Sestak. About 30 or 31. And that is the other big 
driver in this, correct?
    Admiral McCullough. Yes, sir. If you look at our 
requirements for this particular ship, it is on the order of 30 
megawatts. If historically you look at Aegis ships and you run 
an Aegis combat system, it is about five megawatts to run the 
combat system and ship service load in a combat condition.
    Mr. Sestak. Admiral, isn't there some real efforts in order 
to, as you look at CGX, and I know I am getting into worlds 
that you can't get into, but isn't there a real effort to draw 
down, push down that power requirement for CGX?
    Admiral McCullough. Sir, as you noted, the sensitivity 
equation and the proportionality is based on aperture size, and 
power is a cubic. So if you can get more area in the aperture, 
you can drive the power requirements down, and we are trying to 
balance that. Yes, sir, that is true.
    Mr. Sestak. So 31 may be a variable right now?
    Admiral McCullough. The 31 is the power requirement, ship 
service distribution.
    Mr. Sestak. Based on how we do things today, not about how 
we are trying to change CGX TBMD radar, is that right? Or would 
that be unfair to say that there are efforts to----
    Admiral McCullough. I will let Admiral Sullivan take that 
piece of it.
    Admiral Sullivan. As Barry said, it is all about aperture 
and power. What is available today takes a lot of power and 
takes a lot of cooling. So the 31 megawatts, that is about the 
requirement that we had in our medium surface combatant. You 
would like to, obviously, reduce that power draw, and there are 
several development programs out there to in fact take the 
power requirement down.
    However, that is going to be a risk balancing. Do you take 
the aggressive technology that takes the power out, and maybe 
costs a lot more money, or maybe doesn't come true when you 
need it in the timeline of this ship? Or do you take the less 
aggressive power reduction and have it be something you can bet 
on, put the generating capacity in the ship, and then go off 
and design the ship? On a timeline of this ship design, the 
radar may be the pacing requirement.
    Mr. Sestak. I believe the radar is the pacing requirement, 
right? It is also a driver, one of the two main drivers for 
this. And so whichever way you do go is going to be a 
determinant in this study, right?
    Admiral Sullivan. Yes, sir.
    Mr. Sestak. The other issue, and I am not sure how 
pertinent it is, because obviously, like our DDGs that we might 
set off in the Sea of Japan, the three, well, I don't know how 
many are out there now, but you know the three I am talking 
about.
    Admiral Sullivan. Yes, sir.
    Mr. Sestak. If they are just going to sit around out there 
to do that mission, something like nuclear power can be 
attractive. My question, though, is as you watch the Iranians, 
and I saw your survivability, you know, what you put down for 
the other major issue, survivability, that there are a number 
of other means that can help enhance the survivability of a 
ship.
    When we watch the Iranians, apparently the Iranians are 
supplying these explosively formed penetrators (EFP), which 
even our best armor doesn't seem to be able to protect against. 
Is this a concern for a nuclear-powered ship as you have them 
out there?
    Admiral Sullivan. EFPs are a concern, as are many, many 
other terrorist threats to all our ships. We have researched 
that well. We know that the effects are. I would be happy to 
discuss them in a classified session if you want.
    Mr. Sestak. And the other thing, this reactor is a 
nondevelopmental reactor, correct?
    Admiral Donald. That is correct. The study that was done, 
what we assumed, and it was about the approximate fit given 
what we understood, what the assumptions were for the power 
learning. It is the exact same reactor that we are designing 
and constructing right now to go into the Ford class aircraft 
carrier.
    Mr. Sestak. So there is no re-coring? Or is there a re-
coring requirement?
    Admiral Donald. There is.
    Mr. Sestak. Is that cost in this?
    Admiral Donald. It is. That is in there.
    Mr. Sestak. It ought to be in there.
    Admiral Donald. That is in the life-cycle costs. Right.
    Mr. Sestak. That is in it. So you have already, Admiral, 
included that in here?
    Admiral Donald. That is correct. I think that is correct.
    Mr. Sestak. I couldn't find it in the study.
    Admiral Donald. For the carrier, it is a mid-life 
refueling. For the cruiser, it is a life-of-the-ship.
    Mr. Sestak. So it is for the life of the ship?
    Admiral Donald. It is.
    Mr. Sestak. That is what I thought it said.
    Admiral Donald. Yes.
    Mr. Sestak. So there is no re-coring requirement?
    Admiral Donald. Correct.
    Mr. Sestak. How many years will it give?
    Admiral Donald. Thirty years, approximately 30 years.
    Mr. Sestak. So the non-recurring costs are not in here, the 
nonrecurring?
    Admiral Donald. That is correct. The non-recurring costs 
associated with the design work that would be needed to 
reconfigure the existing components is not included in the 
calculation. That is right.
    Mr. Sestak. Would that include the disposition of the 
material after we are done with the life of the ship?
    Admiral Donald. Yes, sir. It does. That is incorporated. 
The ultimate disposal of the fuel and the reactor components is 
included in the life-cycle cost.
    Mr. Sestak. It is included in the life-cycle costs?
    Admiral Donald. Yes, sir.
    Mr. Sestak. I am sorry. I just jotted down, and it looks as 
though it is only a ten percent impact, Admirals, for the 
training of the manpower. In other words, in your pipeline. 
Admiral, I guess this is yours, the training for nuclear-
powered?
    Admiral Donald. Right.
    Mr. Sestak. The impact on the additional training is not 
that enormous?
    Admiral Donald. No. We, in looking at the training 
pipeline, there are a couple of dynamics that are in work right 
now. First off, the Enterprise is going to be going away, and 
that is a pretty significant training load just to keep that 
crew operating. And also as the CVN-21 comes on, the Ford class 
carriers come on, and the Nimitz starts to go away, we are 
targeting a 50 percent reduction in the reactor department 
sizing over there.
    So for the foreseeable future, the training infrastructure 
that we have right now will meet the needs to sustain this 
class, if you choose to do it.
    Mr. Sestak. In regards to the Enterprise, what is the 
disposition cost of the Enterprise going to be?
    Admiral Donald. Right now, the estimated disposition price 
of that is on the order of about $1.1-1.2 billion. That 
includes not just the nuclear piece of it, but that is the 
entire ship disposition cost.
    Mr. Sestak. And the very last question is, the price today 
that we pay for fuel is about $74. Is that what we mean by 
``bbl''?
    Admiral Sullivan. The basis used for the study was $74 per 
barrel, and then the fully-burdened cost of storing it, testing 
it, transporting it out to the ships, I think I had----
    Mr. Sestak. $156 or so.
    Admiral Sullivan. Yes, sir.
    Mr. Sestak. I see. Let me question, does that actually 
represent what you are paying today?
    Admiral Sullivan. Well, today the price of oil--I checked--
is about $62 a barrel.
    Mr. Sestak. I see. So today is it $62, and then it would 
ratchet up to probably $140, you know, for the additional 
costs. And that ``bbl,'' that is just the cost of the crude 
oil.
    Admiral Sullivan. It is the cost to refine, store--the 
fully burdened cost of what we pay to get the oil to the ship.
    Mr. Sestak. Does that include the infrastructure costs 
within it?
    Admiral Sullivan. I don't think it includes the cost of the 
oilers, but I would have to check on that.
    Mr. Sestak. How about storage?
    Admiral Sullivan. Yes.
    Mr. Sestak. The reason I was asking is, it seems as though 
that price--and I am sorry, if I can work through this, because 
I was a poli sci major--but that price, let's say it is $74, 
because I think that is what your study said, if that includes 
the infrastructure costs, should that be the price we use in 
the study? Because the infrastructure cost is going to be the 
same for the Navy, whether or not the price of oil goes up or 
down? So shouldn't we extract the cost of the infrastructure 
for it?
    Admiral Sullivan. I am not sure I understand the question, 
because the cost we used in the study was actually the $150 
burdened cost.
    Mr. Sestak. Which includes the infrastructure costs?
    Admiral Sullivan. Yes.
    Mr. Sestak. Because this will be a small subset of ships, 
the CGX. I think you are planning--how many are you planning?
    Admiral McCullough. Nineteen.
    Mr. Sestak. Nineteen.
    Admiral McCullough. Yes, sir.
    Mr. Sestak. So out of the 316 ships, this infrastructure 
cost of $156 is going to be fixed to some cost. So shouldn't 
you be basing the break-even point cost on the variable cost of 
oil absent the cost of the infrastructure, because the 
infrastructure cost is going to be the same for many of the 
other ships?
    Admiral Sullivan. I guess I have to take that for the 
record, sir.
    Mr. Sestak. But you understand what I am asking?
    Admiral Sullivan. Yes, sir.
    Mr. Sestak. I mean, the study would come out totally 
different if that is a fixed infrastructure cost for the other 
290-some ships.
    Admiral Sullivan. I don't want to get out in front of going 
and pulling the true costs out, but I believe the incremental 
costs that we cost are the oil to go to the ships----
    Mr. Sestak. Could you back that? Because if it is true the 
fixed costs are sunk anyway, then you should only be doing it, 
and that would make the outcome----
    But you understand the question?
    Admiral Sullivan. Yes, sir.
    Mr. Sestak. If only I had that nuclear-trained background. 
[Laughter.]
    Thank you very much, Mr. Chairman.
    Mr. Taylor. Admiral McCullough, following up on Mr. 
Sestak's question, it is my understanding that one of the major 
responsibilities of the next generation of cruisers is to 
provide missile defense for the carriers.
    Admiral McCullough. Yes, sir. That is correct.
    Mr. Taylor. Would that be in its top three missions?
    Admiral McCullough. Yes, sir. That is correct.
    Mr. Taylor. And, you know, I have been amazed at how our 
enemies have found our weaknesses. So I have to believe that 
any potential rival is going to particularly know that we want 
to play an away game. He is going to realize that the Achilles 
heel of the American military is fuel.
    I am told we have about five oilers in the Pacific. If I 
was a foe of the United States, I would find a way in my 
opening round to take care of those five oilers by some means. 
So what good is a missile defense for a nuclear-powered cruiser 
if it can't keep up with the carrier because it ran out of 
fuel?
    Admiral McCullough. Well, sir, first I would say when we 
build a ship of this capability, we are going to have to 
reevaluate the concept of operations under which we employ it. 
Maybe it is a mindset change from the days of when the cruiser 
had to run with the carrier, so the carrier operates under the 
umbrella of protection that the CGX provides to the sea-base.
    As far as your discussion about oilers, operationally, 
Admiral Greenert can help me with this.
    Admiral Greenert. Yes, sir. The oiler distribution in the 
Pacific, there are five oilers, that is correct. But when we 
operate the oilers, we distribute the oilers. In other words, 
they would not all gather in and around the sea-base. And we 
also have other alternatives for a means of refueling. So my 
point is, if an opposing force could distribute their navy in 
the manner that we have our oilers distributed, that would be a 
threat.
    But what I would offer, sir, is that it would be a very, 
very complex matter, one taking great scheming and many 
alternatives. I would submit beyond what we would foresee with 
anybody that we know today, that threat today, and extrapolate 
to 2020.
    Mr. Taylor. Going back to the admiral's point of the 
explosively formed projectiles, five Boston whalers in five 
ports. I mean, you are not talking about distributing the Navy. 
You are talking about whatever rules for whatever means--rocket 
propelled grenades (RPGs) hitting a rudder. I don't see that as 
all that far-fetched.
    Admiral Greenert. Yes, sir. Using these as examples, if you 
will, as you look at this, one of our concepts of operation 
would be to keep these whalers under way and at various 
stations. The point being, and within the concept of 
operations, to not have yourself in various modes, if you will, 
where you are liable to that.
    The way we rotate the oilers, the way we use our fueling 
stops beyond the oilers, because there are other opportunities 
in the Western Pacific other than just the oilers for fueling. 
We would protect them as capital ships in a threat environment, 
and that includes today's environment. That would be key and 
critical to the fleet commander's operations, to preclude the 
very scenario you have said where we have too many in port and 
vulnerable to that kind of attack.
    Mr. Taylor. To that point, what value, if any, was given to 
the nuclear force plan as a means of being able to keep up with 
a carrier at any time, without the need for oilers? Are we 
removing that vulnerability of the need to refuel? Was that 
weighted? Going back to the admiral's questions about, did you 
consider your fixed costs?
    Admiral Sullivan. Again, the cost savings of having that 
ship be free, the medium surface combatant in this case, which 
is not CGX. It is a notional ship design. It is included in the 
operational effectiveness study, but it is not added or 
subtracted as a cost of the cost of doing this. It is not part 
of the study.
    Mr. Taylor. It is recognized as a good thing to have, but 
not included in the cost value.
    Admiral Sullivan. Okay.
    Mr. Taylor. The chair yields to the gentleman from South 
Carolina, Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    I would like to thank you for your service.
    In lieu of a question, I would just make a statement that I 
had the opportunity to grow up in Charleston, South Carolina. 
We were so proud in my growing up to see the Polaris submarines 
and the Trident submarines. I just grew up with a great 
appreciation of how the nuclear Navy made such an impact in 
protecting the American people and ultimate victory in the Cold 
War.
    And then I have had the privilege of touring the Nuclear 
Power School there in Charleston two years ago. It was just 
awesome to see the young people being trained. They were able 
to receive college credits, which I was not at all aware of, 
and to learn a skill that indeed they will be able to carry the 
rest of their lives.
    So I want to thank you for your service, and I look forward 
to working with the chairman in a way to back you up. Thank 
you.
    Mr. Taylor. Thank you.
    Mr. Wilson. I yield.
    Mr. Taylor. Thank you, Mr. Wilson.
    The chair yields to the ranking member.
    Mr. Bartlett. Thank you very much.
    I have a couple of questions about disposal. How much of 
the fuel has been consumed in that 30 or 33 years?
    Admiral Donald. Typically, again it depends somewhat on the 
type of core and how it has been employed, but typically about 
half of the fuel has been consumed over the life of the ship.
    Mr. Bartlett. I was always intrigued by the challenge of 
something that is so hot that I have to squirrel it away for a 
quarter-of-a-million years and I can't get near it, that it 
ought to be good for something. If there is that much energy 
left in it, it has just got to be good for something.
    Who ought to be addressing that challenge? Because in an 
increasingly energy-deficient world, there is going to be some 
interest. Who should be addressing that challenge? It has to be 
good for something, doesn't it?
    Admiral Donald. There is right now, the Department of 
Energy, that is the answer, and certainly commercial partners 
if they choose to get into this. But there is an initiative 
right now called the Global Nuclear Energy Partnership, which 
involves a combination of technologies, including reprocessing, 
taking spent fuel and reprocessing it, and recovering the 
nuclear material that may be of further use, and disposing it 
in a couple of advanced, or means of disposing it as a waste in 
a more probably user-friendly, environmentally friendly way 
than what is done typically today. But that is all advanced 
technology. It is a program of record. It is ongoing in the 
Department of Energy right now.
    Today, however, if you look in the nuclear industry, and in 
fact, in the Naval Nuclear Propulsion Program, we used to 
recycle spent fuel. We would bring it in. It is a chemical 
process basically of dissolving the fuel and extracting the 
uranium that was still usable and then reusing it. One of the 
problems with that technology, however, at the time, it was 
very expensive compared to what the price of uranium was. So it 
was deemed to not be economically feasible.
    The other problem with reprocessing, in the sense that we 
do it today, and certainly we did in the United States, it also 
generates some pretty significant waste streams over and above 
what you would normally have with the spent fuel. So in that 
sense, it didn't make much economic sense. And there were some 
environmental legacies that you had to be concerned about, and 
a decision was made that we are just not going to do that any 
longer.
    We are in the business of doing dry storage right now. You 
are right. There is a resource there that it would be helpful 
if we could get to in an economically correct way and an 
environmentally satisfactory way. That is the effort that is 
going on right now in the Department of Energy, with their 
Global Nuclear Energy Partnership.
    Mr. Bartlett. Oil at $100 or so a barrel will have a way of 
focusing the mind, I think.
    Admiral Donald. It certainly can. Yes, sir.
    Mr. Bartlett. I was absent for a few minutes here. My 
apologies. The reason was that there is a Government 
Accountability Office (GAO) report that is out on peak oil. 
There are now two reports out there for a year or so. One is 
the big study done by Science Applications International 
Corporation (SAIC) for the Department of Energy, which 
concluded that we probably were or shortly would be at peak oil 
with perhaps devastating consequences. They made statements 
like, ``the world has never faced a problem like this; the 
mitigation consequences will be unprecedented.''
    Then there is another study done by the Corps of Engineers 
at the request of the Army, which has concluded about the same 
thing. Today, there was an Associated Press (AP) article saying 
that T. Boone Pickens--who I didn't know until I read the 
article, started his career as an oil geologist--he now says 
that we are at peak oil.
    I was walking over from the last vote with Dave Hobson. I 
want to pass on to you his compliment of the military. He said 
that you all were doing a good job with energy. You are doing 
about the only thing that is being done in our country relative 
to energy. Thank you very much.
    If in fact T. Boone Pickens is right; if in fact these 
other studies are correct, today we are dependent on fossil 
fuels for about 85 percent of all of our energy. The remaining 
15 percent, nuclear provides about 8 percent of it; 20 percent 
of our electricity; 8 percent of our total energy. And we are 
at 7 percent renewables.
    So if in fact it is true, and I think it is true, that we 
are at peak oil, and no matter what we do, we are not going to 
pump more oil in the future. It is going to be less and less 
and less for about another 150 years, until we run down the 
other side of Hubbert's Peak. It is not like we are running out 
of oil. We are just running out of our ability to produce a lot 
of oil really cheap, enough to meet the demands of a growing 
economy which requires about two percent.
    I am very interested in the possibilities of making some of 
our commercial power from power plants that we would also use 
in our military. I noted during the break we were discussing 
that we are about the only society in the world that can afford 
the luxury of evaporating drinking water to get rid of the 
excess heat from our power plants.
    In just about all the rest of the world, the power plant is 
situated in a city near people, and the surplus heat they use 
for what is called ``district heating,'' and with an ammonia 
cycle refrigeration, you can cool your home with that, as well 
as you heat your home in the wintertime.
    Maybe I am a dreamer, but I can envision the day when we 
are making thousands of nuclear power plants that we are now 
distributing through the cities. I can be from here to that 
chair, sleeping near your nuclear reactor in the submarine. I 
have less radiation than if I am laying out on the beach. 
Correct?
    Admiral Donald. That is correct.
    Mr. Bartlett. Okay. So I have no reason to believe that 
they wouldn't be perfectly acceptable in the cities. We have a 
very long history. You gave the statistics, which were 
stunning, about how many man-years and how many steaming hours 
you had, and not a single accident or even a hint of an 
accident.
    I would like you to give us for the record how many homes 
we could provide with electricity from one of your nuclear 
power plants. I would like to know if you were, maybe like 
Henry Ford made his Model T on an assembly line, rather than at 
the local buggy works, which is the way they made the buggies 
before he put a motor in it, how much we could save in 
producing these power plants.
    As I mentioned, Admiral Donald, I look forward to the day 
that our nuclear power plants for our military vessels are 
commercial off the shelf. You noted that the commercials 
wouldn't need to have the hardening that you have for vibration 
and so forth, but you get what I am saying. I just think we 
have an enormous potential here to meet an incredibly important 
need in our country to provide power from other than fossil 
fuels.
    I might note that there are three groups that have common 
cause here. One is the group that believes that greenhouse gas 
production is producing global warming. I think they are 
probably correct. There is a second group--Jim Woolsey and 
McFarland and a whole bunch of others that wrote a letter to 
the President probably 2 or 3 years ago now saying, ``Mr. 
President, the fact that we have only 2 percent as known 
reserves of oil, and use 25 percent of the world's oil, and 
import almost two-thirds of what we use, is a totally 
unacceptable national security risk.''
    So certainly, those interested in the national security 
implications of peak oil have common cause with those who are 
concerned about greenhouse gases and global warming. I am 
concerned about both of those, but I am even more concerned 
about the fact that even though we may with dumb luck get 
through those, there is no dumb luck that will get us by peak 
oil, if these studies are correct, and if T. Boone Pickens is 
correct that we are now peaking in oil production.
    I hope I am wrong, but I believe that the over-arching 
issue in the next decade is going to be energy. It is going to 
dwarf everything else, and we will realize that we have been 
majoring in minors here in the Congress with all these things 
that we are focusing our attention on.
    So I see a big, big potential for the knowledge that you 
all have to contribute in a very big way to our society, and to 
benefit from that in getting much lower production costs for 
your nuclear power plants. Am I wrong?
    Admiral Donald. Certainly, if we produced more, and we 
talked about that already, about dissipating overhead. You do 
more, it does gain you some cost savings.
    What I would like to do is take your questions for the 
record, because I haven't spent a whole lot of time thinking 
about applications for the power plants as ideal for a 
commercial use. So I will take those for the record and we will 
get back to you.
    The other thing I would add to the discussion is, while we 
do have a safety record that we are certainly very proud of, 
and we guard jealously, and we also understand that you are 
only as good as your last safe day of operations, that you can 
never let down your guard.
    We have to maintain vigilance. As you are well aware, it 
doesn't come easy. There is a tremendous amount of effort, 
oversight, and energy involved, personal energy involved on the 
part of a number of people in our organization to make sure 
that those standards are sustained, and that you do continue 
safe operations.
    So the idea of proliferation of many reactors throughout 
the nation, we just would have to keep in mind that that comes 
with an overhead to make sure that you are being proper 
stewards of the public trust and protecting the environment, 
protecting their safety as well. Otherwise, a problem there 
would create a problem for all of us in the nuclear industry. 
So I would just be cautious in an idea of thousands of these 
things around and doing that type of work, but I will take your 
questions and we will get back to you.
    Mr. Bartlett. Thank you. I would like to suggest that the 
alternative of shivering in the dark, which will be a very real 
alternative, will make the minimal risks involved with nuclear 
quite more acceptable.
    Admiral Donald. Yes, sir.
    Mr. Bartlett. Mr. Chairman, thank you very much for a good 
hearing.
    Panel, thank you very much.
    Mr. Taylor. Thank you, Mr. Bartlett.
    I have come to become a believer in Mr. Bartlett's theory 
as far as peak oil. Whether he is 100 percent right or half 
right, he is right. It is just a matter of sooner than later. I 
am convinced that 50 years from now, every surface combatant 
will be powered by something other than what we are powering 
ships with now. It is going to be nuclear or something beyond 
that.
    So the argument of whether or not we are still using 
diesels and turbines in major surface combatants I think is off 
the table 50 years from now, and probably off the table 25 
years from now.
    With that in mind, that the future is nuclear powered, I 
think Admiral Rickover was right, if not premature, and you 
know, we have a yard that predominantly makes submarines, a 
yard that predominantly makes carriers, two yards that 
predominantly make surface combatants, going back to my 
previous question.
    If the future is nuclear power, and if those two yards 
wanted to stay in the surface combatant business, what is the 
investment on the part of an Ingalls? What is the investment on 
the part of a Bath, to make themselves ready for the future?
    Admiral Donald. With respect to nuclear certification?
    Mr. Taylor. Yes.
    Admiral Donald. That is the specific question? What I would 
like to do is, in addition to the remarks I made prior to 
define what it would take, what I would request is to take that 
question for the record and maybe put some numbers against that 
and get back to you.
    Mr. Taylor. The third thing, Admiral Donald--and I know 
nothing is ever as simple as we would like it to be--one of the 
great things about our gas turbine is that we can drop it down 
the stack or remove it through the stack.
    If the option would be for a very substantial portion of 
that ship to be built and then to be engineered in a way where 
the nuclear power plant could be installed or removed, if that 
is even an option, and I know that this is actually a lot more 
complex than a gas turbine, but using that analogy, could a 
ship be designed so that to a very large extent it could be 
made as a ship and then towed to one of the places and 
installed? I would be curious.
    Admiral Donald. As Admiral Sullivan pointed out, we do do 
modular construction. In fact, we do that in the Virginia class 
today. If we are talking about, again going back to the 
previous discussion that we had about the realities of the next 
generation of surface ships, whether CGX or not, if we really 
are interested in a nuclear variant, the only thing that I 
would say is that one of the assumptions we made is that you 
would be using existing components to the extent you could, 
with a minimum of redesign.
    The idea that we would create a modular power plant now to 
meet the need of the next generation of surface combatant would 
probably add significant complexity and significant costs to 
what you would be talking about doing. So probably not for the 
next generation, but if you were looking at something beyond 
that, then we would certainly look at it, and we would look at 
modular by any stretch of the imagination, just in the course 
of business.
    But we have not spent a whole lot of time and energy at 
naval reactors looking at a modular-type design to be dropped 
into a plant or a ship in the sense that a gas turbine would 
be--at least not yet. And that was not the assumption that we 
used in the study or in any other work we did associated with 
the study.
    Mr. Taylor. This would be for the panel: What do you think 
is the timeline for a working directed-energy weapon? How far 
away are we from that? Are we five years from it, 15 years from 
it?
    Admiral McCullough. We have a prototype railgun down in 
Auburn, but that is not directed energy. We are looking at 2022 
to weaponize that. So now you are talking about something that 
is directed energy that is in the real early stages of 
development, so I don't see it anytime before that.
    Mr. Taylor. Is the railgun, like the radar, energy 
intensive?
    Admiral McCullough. Yes, sir. At this stage of the game, 
yes, sir.
    Mr. Taylor. And the form of energy is?
    Admiral McCullough. It is electricity stored in a capacitor 
bank, the one we have at Auburn.
    Mr. Taylor. And if you can, give me a term of how much 
energy would be required for that.
    Admiral McCullough. It is just about 20 megawatts of swing 
power. When you shot it, that is what you would have to 
recharge to.
    Mr. Taylor. Okay. So that is 20 megawatts, plus the 31 
megawatts for the theater missile. Would one of the power 
plants out of a carrier, if we were to put that into a cruiser, 
would that supply enough energy to power the cruiser, power the 
missile defense, and power the railgun?
    Admiral Donald. The calculations, the assumption that we 
made with the power plant for the next-generation surface 
combatant, or the medium-size surface combatant, would meet the 
needs for the operating profile, plus assumptions for the 
radar.
    I don't believe it included railguns in it. I would defer 
to them on that. It left margin in for growth in the ship to 
the tune of about 25 percent during the life of the ship. So 
that is a rough approximation, given what we know about what 
this shop could possibly look like, but it did include margin.
    Mr. Taylor. Okay, one last question before I yield to my 
ranking member.
    I am very much impressed with the thoroughness of your 
report. I am obviously pleased with the conclusion. You did 
stop short of saying the United States Navy has said ``our 
submarines will be nuclear.'' The United States Navy has said, 
``Our carriers will be nuclear.'' You stopped short of saying 
it is the recommendation of the United States Navy to have a 
nuclear-powered cruiser.
    I am curious why.
    Secretary Etter. I would suggest that we are really waiting 
on the analysis of alternatives. We believe we need that data 
in order to be able to determine what really is the right path 
ahead. We think that study is of sufficient detail and, as we 
discussed earlier, some of the key things that are driving that 
are the radar. But we believe with the results from the 
analysis, that we will be able to determine what would be the 
right path ahead.
    Mr. Taylor. Madam Secretary, what is the timeline on that 
report?
    Secretary Etter. We are looking for the report to be out 
toward the end of the year. I would ask Admiral McCullough to 
explain the steps that are still needed to finish that.
    Admiral McCullough. Yes, ma'am. We have broken the AOA, the 
analysis of alternatives, into phases because different parts 
of the analysis will drive subsequent parts. As I said earlier, 
a lot about our sensitivity has to do with the size of the 
aperture. So once you look at the potential threat in the 2024 
timeframe, and then we look at a projected threat through the 
engineered service life of the ship, we will know how big the 
aperture has to be for the radar.
    The aperture size will drive the size of the deck house. We 
expect to have the radar analysis done by the end of June. And 
then we will start the development of the radar, the further 
refinement in the radar in the program. Once you know how big 
the deck house is, based on the radar, you will understand how 
big the hull on the ship has to be.
    Then. given the hull size, we will evaluate the propulsion 
plant that needs to go in the ship, again with the growth to 
achieve capability throughout the engineered service life of 
the ship. We anticipate that that part of the study will 
conclude late in the fiscal year to support our milestone 
decision.
    Mr. Taylor. Great. Thank you.
    What is the status of the direct energy conversion in lieu 
of the steam conversion?
    Admiral Donald. Really since 1988, we at naval reactors 
have had an evolving process of looking at alternatives for 
using the nuclear energy in more efficient, more effective, 
more innovative ways to generate power, as opposed to what we 
do today with a pressurized water reactor that has become so 
popular. There have been a number of technologies we have 
looked at.
    One that we did look at was called a thermophotovoltaic 
energy transfer process. We studied that in some depth, and in 
fact made some significant strides in that. For instance, the 
efficiency of the thermophotovoltaic collector, when we first 
started this work back in the mid-1990's, the best you could 
hope for was an efficiency of about four percent. When we 
completed the work that we have done to date on that, we had 
the efficiency in upwards of about 20 percent, which has never 
been done anywhere.
    We felt that we had taken that technology about as far as 
we could, with the idea that it would be available for a ship 
application in the foreseeable future. The difficulty that we 
ran into had nothing to do necessarily with the technology we 
were investigating, but it involved different types of reactors 
that you would need to generate the heat. In other words, you 
are talking about a factor of about four or five hotter 
reactors that you would have to have, that would run at an 
elevated temperature to make this work.
    That just is not feasible in a ship that you and I can 
foresee today. So what we have done is we have wrapped that 
technology up and we have placed it on the shelf. We are 
looking at other possibilities to take advantage of nuclear 
energy on ships. We continue to press the envelope in that 
regard. But right now, for practical applications for shipboard 
use, the pressurized water reactor remains the best alternative 
for the foreseeable future.
    Mr. Taylor. Thank you, Admiral.
    Mr. Bartlett.
    Mr. Bartlett. In 2 months and 13 days, on May 14, it will 
be the 50th anniversary of a talk that Hyman Rickover gave to a 
group of physicians in Minnesota. If Google can't find it for 
you, call our office and we will get you a copy of the talk.
    If you thought he was a great intellect, after you read 
that talk, you will agree he was a great, great intellect. It 
is on energy. I would encourage you to get the talk. It is just 
a fascinating talk. He was a man really, really interested in a 
lot of different areas, and you will be fascinated by his talk.
    Mr. Taylor. Last question, and I do mean last question.
    The additional expense, if at Bath or Ingalls, it would 
have to get nuclear certified? Is there any benefit to that, as 
a result of doing that, that is translated to other 
conventionally powered ships? Do they get better at anything? 
Does the process become more efficient in any way, safer in any 
way? It is a matter of curiosity on my part.
    Admiral Donald. I would say, one of the things that we do 
take some degree of pride in in our business is that we do 
believe we have a rigorous engineering approach to our business 
in a formal way. We do work very hard to put processes in place 
to ensure safety and ensure effectiveness, and to ensure 
efficiency in the way we do our business. So in that sense, we 
like to think that we could make any organization better, just 
by maybe taking on some of the things that we do.
    But beyond that, I am not sure I would be the one that 
would be in a position to assess what advantage that would be 
to a commercial business or not. There are some things that we 
do that because of the level of detail and obviously we are 
concerned about the consequence of should things go wrong. We 
do put layers of defense in place and we do get into a degree 
of detail that probably some other industries would find to be 
somewhat cumbersome, but are necessary if you are going to 
manage a complex technology, an unforgiving technology like 
nuclear.
    So I am sure there are some pluses or minuses in that, but 
I think it would be better to ask commercial industry how they 
felt about that.
    Mr. Taylor. Admiral Sullivan, I am just curious, obviously 
the pressure requirements, the safety requirements on your 
welds for your piping and things of that nature, I have got to 
believe that those additional requirements have got to 
translate into an improved process throughout the yard. I was 
just curious.
    Admiral Sullivan. As the admiral said, I think when you 
introduce the nuclear culture into a shipyard, it spreads and 
you get better. There is an overhead price to pay for that.
    So, again, yes. If you introduce nuclear power engineering 
in all the things that Admiral Donald listed earlier--all of 
the testing, the certification, the engineering, the rigorous 
adherence to standards, the welds, and all of that--if that 
spreads across the yard, it is definitely an improvement, and 
everyone grows a culture of safety. That takes a long time and 
it costs a lot of money, so you would have to actually do the 
business case of is it worth going down that path.
    Mr. Taylor. Okay.
    Gentlemen, Madam Secretary, I thank you very much for being 
here.
    The committee stands adjourned.
    [Whereupon, at 5:16 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 1, 2007

=======================================================================



======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 1, 2007

=======================================================================


    [GRAPHIC] [TIFF OMITTED] 37535.001
    
    [GRAPHIC] [TIFF OMITTED] 37535.002
    
    [GRAPHIC] [TIFF OMITTED] 37535.003
    
    [GRAPHIC] [TIFF OMITTED] 37535.004
    
    [GRAPHIC] [TIFF OMITTED] 37535.005
    
    [GRAPHIC] [TIFF OMITTED] 37535.006
    
    [GRAPHIC] [TIFF OMITTED] 37535.007
    
    [GRAPHIC] [TIFF OMITTED] 37535.008
    
    [GRAPHIC] [TIFF OMITTED] 37535.009
    
    [GRAPHIC] [TIFF OMITTED] 37535.010
    
    [GRAPHIC] [TIFF OMITTED] 37535.011
    
    [GRAPHIC] [TIFF OMITTED] 37535.012
    
    [GRAPHIC] [TIFF OMITTED] 37535.013
    
    [GRAPHIC] [TIFF OMITTED] 37535.014
    
    [GRAPHIC] [TIFF OMITTED] 37535.015
    
    [GRAPHIC] [TIFF OMITTED] 37535.016
    
    [GRAPHIC] [TIFF OMITTED] 37535.017
    
    [GRAPHIC] [TIFF OMITTED] 37535.018
    
    [GRAPHIC] [TIFF OMITTED] 37535.019
    
    [GRAPHIC] [TIFF OMITTED] 37535.020
    
    [GRAPHIC] [TIFF OMITTED] 37535.021
    
    [GRAPHIC] [TIFF OMITTED] 37535.022
    
    [GRAPHIC] [TIFF OMITTED] 37535.023
    
    [GRAPHIC] [TIFF OMITTED] 37535.024
    
    [GRAPHIC] [TIFF OMITTED] 37535.025
    
    [GRAPHIC] [TIFF OMITTED] 37535.026
    
    [GRAPHIC] [TIFF OMITTED] 37535.027
    
    [GRAPHIC] [TIFF OMITTED] 37535.028
    
    [GRAPHIC] [TIFF OMITTED] 37535.029
    
    [GRAPHIC] [TIFF OMITTED] 37535.030
    
    [GRAPHIC] [TIFF OMITTED] 37535.031
    
    [GRAPHIC] [TIFF OMITTED] 37535.032
    
    [GRAPHIC] [TIFF OMITTED] 37535.033
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 1, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SESTAK

    Mr. Sestak. Shouldn't you be basing the break-even point cost on 
the variable cost of oil absent the cost of the infrastructure, because 
the infrastructure cost is going to be the same for many of the other 
ships?
    Admiral Sullivan. Yes. The Report to Congress (RTC) breakeven cost 
analysis discriminated between power plant baselines based only on 
costs which were variable with the market price of crude oil and also 
which were discriminators between baselines. Although these variable 
burdened costs were included in the analysis, the breakeven data in the 
study is presented directly against the price of crude oil for ease of 
comparison to market prices. The below information provides a more 
detailed discussion of the burdening.
    The RTC Studies burdened the cost of fuel to reflect the variable 
costs attributable to warfare and mobility mission energy consumption. 
Fuel burdening assumptions are:

    <bullet>  The baseline market price of fuel used in this analysis 
is $74.15 per barrel of crude oil, and its burdening buildup is shown 
below in the figure below.

 
 
 
 
Fully Burdened                                                  $152.95
 
Direct (DESC)                                                    $96.60
------------------------------------------------------------------------
  Crude Oil                                                      $74.15
  Refinement                                                     $13.76
  Transportation                                                  $2.67
  Facilities/Operations                                           $5.93
  Mark-Up                                                         $0.09
 
Indirect                                                         $56.35
Storage & Handling                                                $0.05
------------------------------------------------------------------------
  Navy FISC
  Navy Barge                                                      $0.05
Delivery                                                         $52.10
------------------------------------------------------------------------
  Oiler Acquisition                                              $14.67
  Oiler O&S/Charter Costs                                        $37.43
Environment                                                       $4.20
 


    <bullet>  As the price of crude oil increases or decreases, the 
other elements of the burdened rate are assumed to remain constant with 
the exception of Oiler O&S/Charter costs. Fuel makes up 20% of the 
Oiler O&S/Charter costs; therefore, 20% is varied based on Crude Oil 
cost.

    The RTC breakeven cost analysis assumed that all sources of 
burdening were applied to the fuel used to energize mobility and 
warfare mission systems in the power and propulsion plant variants in 
this study. The direct costs of burdening reflect the contracted price 
of product paid uniformly by the services to the Defense Energy Support 
Center. The Navy specific indirect burdening is based on the 
depreciated cost of Navy delivery assets (oilers), operating and 
support costs, and the cost of chartered asset fuel delivery. 
Acquisition costs of the oilers that support the groups of ships 
forming the surrogate future fleet modeled in the study were 
depreciated and proportioned to total fuel--Diesel Fuel Marine (DFM) 
(F76) and JP-5 (aviation fuel)--delivered. Only the variable, 
depreciated cost of Navy oilers apportioned to the DFM used by organic 
ship power and propulsion systems was included in the burdening. Other 
indirect variable costs attributable to other non-propulsion plant
fluid delivery that are constant between propulsion plant baselines are 
not discriminators between power and propulsion systems and so were not 
included.
    Excerpt from 1 March Testimony, House Armed Services Sub-Committee 
on Sea Power and Expeditionary Warfare is provided for context.

                                  <all>

</pre></body></html>
